Appendix A

If this opinion indicates that it is “FOR PUBLICATION,” it is subject to
revision until final publication in the Michigan Appeals Reports.

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
May 14, 2020

Plaintiff-Appellee,
v

No. 345895
Oakland Circuit Court
LC No. 2018-266994-FH

SPENCER RICHARD ANDREWS,
Defendant-Appellant.

Before: MURRAY, C.J., and RONAYNE KRAUSE and TUKEL, JJ.
PER CURIAM.
Defendant, Spencer Richard Andrews, appeals as of right his jury convictions of
conspiracy to deliver or possess with the intent to deliver methylenedioxymethamphetamine
(MDMA), MCL 333.7401(2)(b)(i) and MCL 750.157a; delivery or possession with intent to
deliver MDMA, MCL 333.7401(2)(b)(i); possession of the controlled substance ketamine, MCL
333.7403(2)(b)(ii); and possession of the controlled substance amphetamine, MCL
333.7403(2)(b)(ii). The trial court sentenced defendant to concurrent terms of 7 to 20 years’
imprisonment for the conspiracy and delivery or possession with intent to deliver MDMA1
convictions and one to two years’ imprisonment for the possession of controlled substances
convictions. This appeal is being decided without oral argument pursuant to MCR 7.214(E)(1).
We affirm.
I. UNDERLYING FACTS
In November 2017, United States Custom and Border Patrol (CBP) Officers received and
inspected a package that arrived at the John F. Kennedy airport in New York, New York, from
Belgium. The package was addressed to Devin Patrick in Pontiac, Michigan. CBP determined
that the package was suspicious and opened the package to find over 1,000 grams of MDMA. CBP
resealed the package and contacted United States Department of Homeland Security Special Agent
Weidman at the Detroit office. Special Agent Weidman obtained custody of the package and

1

MDMA is often referred to by one of its common street names, Ecstasy.

-1-

contacted the Oakland County Narcotics Enforcement Team (OCNET) to execute a controlled
delivery of the package.
OCNET Detective Charles Harvey Liggett arranged for the package to be delivered on
November 20, 2017, to Patrick’s address, through the United States Postal Service. Royal Oak
Police Department Detective Jason Manning observed the United States postal inspector deliver a
large brown cardboard box to an unidentified person at the front door of Patrick’s residence. At
some point that day, Detective Manning observed a vehicle that was driven by Vince Malone stop
at Patrick’s residence. Defendant and Malone exited the vehicle and entered the house from the
side entrance. Approximately 15 minutes later, defendant exited the house carrying the package
that the postal inspector had delivered. Defendant placed the package in the trunk of the vehicle
and sat in the passenger seat of the vehicle. Malone then drove away from Patrick’s residence.
Oakland County Sherriff’s Office (OCSO) Detective Scott Panin conducted a traffic stop
of Malone and defendant. During a cursory search, police found a large amount of cash on
defendant’s person. Detective Panin also found a cell phone in the passenger seat of the vehicle.
Defendant told Detective Liggett that “he was on his way to deliver a package to his friend
Devon [sic] Patrick, which is where that package was addressed to” when he was stopped.
Detective Liggett responded that defendant’s statement was not true because the police officers
observed defendant arrive and leave Patrick’s house; he also told defendant that was the reason for
the traffic stop. OCSO Corrections Deputy James Richardson searched defendant when he arrived
at the Oakland County jail. Deputy Richardson found one bag with approximately 0.5 grams of a
white powdery substance and another bag with approximately 6.5 crushed tablets or what appeared
to Deputy Richardson to be crushed pills and a 2 or 3-inch metal spoon. Deputy Wiegmann gave
the bags and items that Deputy Richardson had removed from defendant to Detective Liggett.
During the traffic stop, Detective Liggett searched Malone’s vehicle and, in the trunk of
the vehicle, found the package that was addressed to Patrick and a lockbox containing marijuana.
The package was a brown paper box that contained a bass amplifier or speaker box. The speaker
was wooden and, within the speaker, there was a clear plastic bag of MDMA wrapped in foil
cellophane. Detective Liggett testified that the purpose of this wrapping and packaging was to
avoid detection of the odor of the substance.
After the traffic stop, Detectives Liggett and Manning returned to Patrick’s house to
conduct a search pursuant to the search warrant. Detective Manning found a rolled dollar bill with
a white powdery substance and marijuana on a television stand in the basement. Detective
Manning testified that the basement was arranged as Patrick’s bedroom. Detective Manning also
found two glass vials, one of which had a white powdery residue in it, located in a dresser drawer.
According to Detective Manning, glass vials were used to package cocaine, ketamine, and
methamphetamine for sales of those drugs. The police officers also found 190 tabs of LSD, empty
gel capsules, and small clear plastic bags suitable for packaging drugs or pills that were located on
a table near a couch, $150 in a dresser drawer and a black digital scale on the television stand. On
November 21, 2017, Detective Liggett interviewed defendant while he was in police custody. The
jury found defendant guilty of conspiracy to deliver or possess with the intent to deliver MDMA,
delivery or possession with intent to deliver MDMA, possession of ketamine, and possession of
amphetamine.
-2-

II. SEARCH OF DEFENDANT’S CELL PHONE
Defendant argues that the evidence and testimony presented at trial of the contents of his
cell phone were not within the scope of his consent to the search of the phone. Defendant also
argues that he was deprived of his right to effective assistance of counsel regarding this claim. We
disagree.
A. PRESERVATION AND STANDARD OF REVIEW
To preserve an issue regarding a trial court’s evidentiary ruling, a defendant must raise that
particular issue in the trial court and raise the same basis for objection on appeal. People v Gaines,
306 Mich App 289, 306; 856 NW2d 222 (2014). Defendant failed to challenge the scope of the
search of his cell phone at trial. Thus, the issue of the evidentiary ruling is unpreserved.
Unpreserved issues are reviewed for plain error. People v Cain, 498 Mich 108, 116; 869
NW2d 829 (2015).
To avoid forfeiture under the plain error rule, three requirements must be met: 1)
error must have occurred, 2) the error was plain, i.e., clear or obvious, 3) and the
plain error affected substantial rights. The third requirement generally requires a
showing of prejudice, i.e., that the error affected the outcome of the lower court
proceedings. It is the defendant rather than the Government who bears the burden
of persuasion with respect to prejudice. Finally, once a defendant satisfies these
three requirements, an appellate court must exercise its discretion in deciding
whether to reverse. Reversal is warranted only when the plain, forfeited error
resulted in the conviction of an actually innocent defendant or when an error
seriously affected the fairness, integrity or public reputation of judicial proceedings
independent of the defendant’s innocence. [People v Carines, 460 Mich 750, 763764; 597 NW2d 130 (1999) (quotation marks, citations, and brackets omitted).]
“A ‘clear or obvious’ error under the second prong is one that is not ‘subject to reasonable
dispute.’ ” People v Randolph, 502 Mich 1, 10; 917 NW2d 249 (2018). In the instant context,
prejudice “requires a showing . . . that the error affected the outcome of the lower court
proceedings.” People v Chelmicki, 305 Mich App 58, 69; 850 NW2d 612 (2014) (quotation marks
and citation omitted).
To properly preserve a claim of ineffective assistance of counsel, a defendant must move
for either a new trial or a Ginther2 hearing in the trial court; failure to make any such motion
“ordinarily precludes review of the issue unless the appellate record contains sufficient detail to
support the defendant’s claim.” People v Sabin (On Second Remand), 242 Mich App 656, 658659; 620 NW2d 19 (2000). Defendant moved for a remand, but this Court denied his motion

2

People v Ginther, 390 Mich 436; 212 NW2d 922 (1973).

-3-

without prejudice. People v Andrews, unpublished order of the Court of Appeals, entered July 11,
2019 (Docket No. 345895). Thus, the issue of ineffective assistance of counsel is preserved.
Regardless of whether a claim of ineffective assistance is properly preserved, if the trial
court did not hold a Ginther3 hearing, “our review is limited to the facts on the record.” People v
Wilson, 242 Mich App 350, 352; 619 NW2d 413 (2000). However, because defendant moved for
a remand for a Ginther hearing in this Court, and this Court denied the motion without prejudice,
we may consider evidence not in the record for the limited purpose of considering whether we now
believe a remand for a Ginther hearing would be appropriate. See People v Moore, 493 Mich 933,
933; 825 NW2d 580 (2013). “A claim of ineffective assistance of counsel is a mixed question of
law and fact. A trial court’s findings of fact, if any, are reviewed for clear error, and this Court
reviews the ultimate constitutional issue arising from an ineffective assistance of counsel claim de
novo.” People v Petri, 279 Mich App 407, 410; 760 NW2d 882 (2008).
B. ANALYSIS
The United States and Michigan Constitutions prohibit unreasonable searches and seizures.
US Const, Am IV; Const 1963, art 1, § 11. In general, searches or seizures conducted without a
warrant are per se unreasonable. People v Woodard, 321 Mich App 377, 383; 909 NW2d 299
(2017). Evidence obtained from an unreasonable search and seizure must be excluded from trial.
Id. But a warrantless search is not unreasonable if a defendant consents to the search or seizure.
Id. at 383-384. “The consent exception permits a search and seizure if the consent is unequivocal,
specific, and freely and intelligently given.” People v Mahdi, 317 Mich App 446, 460; 894 NW2d
732 (2016). A defendant may limit the scope of his or her consent and may revoke the consent.
Id. at 461. “ ‘The standard for measuring the scope of a suspect’s consent under the Fourth
Amendment is that of “objective” reasonableness—what would the typical reasonable person have
understood by the exchange between the officer and the suspect.’ ” Id. (citation omitted).
Defendant consented to a search of his cell phone so the police could corroborate his
statement that an individual named Zac4 Escobol arranged the drug delivery and that Escobol was
involved in a larger drug trafficking trade. While defendant expressed concern that the search
could uncover personal information, he failed to state that any area of his cell phone was off limits
to the police during their search or to specify for the police any area of his cell phone where this
information could be held other than a single statement that a “few texts” and one phone call might
be relevant. Thus, a typical reasonable person would have understood that the police could search
the entirety of defendant’s cell phone for information about Escobol because the police had no
way to know where exactly on defendant’s cell phone they could find information corroborating
defendant’s allegations about Escobol. Consequently, defendant consented to the search of his
cell phone.
Because it was reasonable that defendant’s pictures and text conversations, even
conversations with other individuals, could corroborate his story that Escobol was a drug dealer,

3

No Ginther hearing was held in this case.

4

Or possibly Zach.

-4-

his consent encompassed a search of all of his cell phone’s texts and pictures. Furthermore,
defendant’s trial attorney was not ineffective for failing to challenge the scope of defendant’s
consent to search his cell phone because any objection would have lacked merit. See People v
Chambers, 277 Mich App 1, 11; 742 NW2d 610 (2007) (“Counsel is not ineffective for failing to
make a futile objection.”). We find no reason to reconsider our previous denial of defendant’s
motion to remand for a Ginther hearing.
III. RELEVANCE OF CELL PHONE RECORDS
Defendant next argues that the contents of his cell phone were not relevant to the charged
offenses, the probative value of the evidence was substantially outweighed by the danger of unfair
prejudice, and the evidence constituted inadmissible other-acts evidence. We disagree.
A. WAIVER
As an initial matter, defendant waived the issue of the admissibility of cell phone records
regarding his communications with Patrick and Escobol. Waiver occurs when a defendant
“affirmatively approve[s]” of an issue before the trial court, only to later argue on appeal that there
was error. People v Jackson, 313 Mich App 409, 420; 884 NW2d 297 (2015). “Because error
requiring reversal cannot be error to which the aggrieved party contributed by plan or negligence,”
a defendant’s approval of a trial court decision waives the right to appeal. People v Gonzalez, 256
Mich App 212, 224; 663 NW2d 499 (2003), disapproved in part on other grounds 469 Mich 967
(2003) (citation and quotation marks omitted). When waiver occurs, any error is extinguished
“and precludes defendant from raising the issue on appeal.” People v Carter, 462 Mich 206, 209,
215; 612 NW2d 144 (2000). At trial, defense counsel asked the trial court to limit admission of
defendant’s phone records to “those [individuals] involved in the conspiracy,” only objecting to
admission of defendant’s phone records that related to communications with such other
individuals. Thus, the issue of the admissibility of defendant’s communications with Patrick and
Escobol is waived because defense counsel affirmatively approved of their admission into
evidence.
B. PRESERVATION AND STANDARD OF REVIEW
Defense counsel objected to the admission at trial of defendant’s communications with
other individuals on that same grounds challenged on appeal. Thus, defendant’s challenge to the
admission of that evidence is preserved. See Gaines, 306 Mich App at 306. But defense counsel
only challenged the admissibility of other information from defendant’s cell phone, such as
photographs and word term searches conducted on the contents of the phone, on grounds different
from those challenged on appeal. Thus, defendant’s challenge to the admission of that evidence
is not preserved. See id.
When properly preserved, this Court “review[s] for an abuse of discretion a trial court’s
decision to admit or exclude evidence,” and reviews any preliminary legal questions of law de
novo. People v Mann, 288 Mich App 114, 117; 792 NW2d 53 (2010). Preliminary questions of
law require a court to determine “whether a rule of evidence or statute precludes admissibility of
the evidence.” People v Lukity, 460 Mich 484, 488; 596 NW2d 607 (1999). “An abuse of
discretion occurs when the court chooses an outcome that falls outside the range of reasonable and

-5-

principled outcomes.” People v Mahone, 294 Mich App 208, 212; 816 NW2d 436 (2011). “A
trial court also necessarily abuses its discretion when it makes an error of law.” People v Al-Shara,
311 Mich App 560, 566; 876 NW2d 826 (2015). “[A] trial court’s decision on a close evidentiary
question ordinarily cannot be an abuse of discretion.” People v Cameron, 291 Mich App 599, 608;
806 NW2d 371 (2011) (quotation marks and citation omitted).
As stated earlier in Part II(A), unpreserved issues are reviewed for plain error. See Cain,
498 Mich at 116.
C. ANALYSIS
Evidence is relevant if it has “any tendency to make the existence of any fact that is of
consequence to the determination of the action more probable or less probable than it would be
without the evidence.” People v Martzke, 251 Mich App 282, 293; 651 NW2d 490 (2002) (citation
and quotation marks omitted). “Under this broad definition, evidence is admissible if it is helpful
in throwing light on any material point.” People v Aldrich, 246 Mich App 101, 114; 631 NW2d
67 (2001).
Under MRE 403, however, relevant evidence “may be excluded if its probative value is
substantially outweighed by the danger of unfair prejudice, confusion of the issues, or misleading
the jury, or by considerations of undue delay, waste of time, or needless presentation of cumulative
evidence.” “MRE 403 does not prohibit prejudicial evidence; rather, it prohibits evidence that is
unfairly prejudicial. In essence, evidence is unfairly prejudicial when there exists a danger that
marginally probative evidence might be given undue weight by the jury.” People v Dixon-Bey,
321 Mich App 490, 513; 909 NW2d 458 (2017).
“In reviewing the trial court’s decision for an abuse of discretion, the appellate court
must view the evidence in the light most favorable to its proponent, giving ‘the
evidence its maximum reasonable probative force and its minimum reasonable
prejudicial value.’ ” “[T]he draftsmen intended that the trial judge be given very
substantial discretion in ‘balancing’ probative value on the one hand and ‘unfair
prejudice’ on the other, and that the trial judge should not be reversed simply
because an appellate court believes it would have decided the matter otherwise.”
People v Head, 323 Mich App 526, 540-541; 917 NW2d 752 (citations and footnote
omitted; alteration in original).
MRE 404(b) provides, in relevant part:
(1) Evidence of other crimes, wrongs, or acts is not admissible to prove the
character of a person in order to show action in conformity therewith. It may,
however, be admissible for other purposes, such as proof of motive, opportunity,
intent, preparation, scheme, plan, or system in doing an act, knowledge, identity, or
absence of mistake or accident when the same is material, whether such other
crimes, wrongs, or acts are contemporaneous with, or prior or subsequent to the
conduct at issue in the case.

-6-

MRE 404(b) is a rule of inclusion of circumstances under which other-acts evidence may be
admissible even though it may also give rise to an inference about the defendant’s character.
People v Jackson, 498 Mich 246, 259; 869 NW2d 253 (2015). “Relevant other acts evidence does
not violate [MRE] 404(b) unless it is offered solely to show the criminal propensity of an individual
to establish that he acted in conformity therewith.” People v VanderVliet, 444 Mich 52, 65; 508
NW2d 114 (1993), amended 445 Mich 1205 (1994). If the prosecution shows that the evidence is
offered for nonpropensity purposes, the evidence is admissible unless its probative value is
substantially outweighed by the danger of unfair prejudice pursuant to MRE 403. See Jackson,
498 Mich at 259-260.
The elements of possession of a controlled substance with intent to deliver under MCL
333.7401 are “(1) that a defendant possessed a controlled substance, (2) that the defendant knew
he or she possessed the controlled substance, (3) that the defendant intended to deliver the
controlled substance to someone else, and (4) the amount of the controlled substance, if
applicable.” People v Robar, 321 Mich App 106, 131; 910 NW2d 328 (2017). In order to prove
a conspiracy under MCL 750.157a, the prosecution must demonstrate that two or more persons
agreed to do an unlawful act or that two or more persons agreed to do a legal act using illegal
means. People v Seewald, 499 Mich 111, 118; 879 NW2d 237 (2016). Therefore, the offense of
conspiracy to deliver a controlled substance or possess a controlled substance with the intent to
deliver requires proof of an agreement between two or more persons to deliver or possess with the
intent to deliver a controlled substance. See id.
In this case, the text messages defendant exchanged with Patrick and Escobol on the day
of the controlled delivery were relevant to each person’s involvement in the drug delivery and the
conspiracy to deliver or possess with intent to deliver MDMA. The text messages and photographs
of methamphetamine and drug activity demonstrated that defendant was familiar with various
drugs and drug sales, which was relevant to defendant’s knowledge that he possessed a controlled
substance. Additionally, the text messages regarding defendant’s previous activity selling and
purchasing drugs from as early as July 2016 was relevant to the scope of the conspiracy to deliver
or possess with the intent to deliver MDMA to another person in November 2017. This evidence
was relevant to establishing the conspiracy among defendant, Patrick, and Escobol and was
relevant to challenging the defense that defendant was a drug user and did not know that the
package he was delivering contained drugs. See MRE 401; Martzke, 251 Mich App at 293.
Additionally, the probative value of the text messages and photographs was not
substantially outweighed by the danger of unfair prejudice. The evidence was probative of
defendant’s knowledge that he possessed a controlled substance and that he intended to deliver or
possess with the intent to deliver the MDMA to another individual. The evidence established that
defendant was involved in purchasing and selling drugs with Patrick and Escobol and that
defendant made arrangements with Escobol and Patrick to participate in the delivery of MDMA
on November 20, 2017. Defendant’s cell phone records were not the type of evidence that would
mislead or confuse the jury. Furthermore, defendant failed to demonstrate that the evidence
inserted extraneous considerations to the merits of the case, such as appeals to the jury’s bias,
sympathy, anger, or shock. See People v Fisher, 449 Mich 441, 451-452; 537 NW2d 577 (1995).
This evidence was much more than marginally probative and, therefore, its prejudicial effect did
not substantially outweigh its probative value. See MRE 403; Fisher, 449 Mich at 453-454.

-7-

Finally, the text messages and photographs did not constitute inadmissible other-acts
evidence. MRE 404(b) applies to prior acts, but not to prior statements. People v Goddard, 429
Mich 505, 518; 418 NW2d 881 (1988). A text message is a form of communication, not an act.
Thus, a text message is a statement and, therefore, is not within the scope of MRE 404(b). Instead,
these text messages should be considered admissions by a party-opponent because they were
defendant’s statements, offered by the prosecution to establish the elements of the offenses against
defendant. See MRE 801(d)(2)(A). Further, the evidence was offered for nonpropensity purposes,
including defendant’s knowledge that the package contained a controlled substance and knowledge
that he was participating in the agreement with Patrick and Escobol to possess, transport, and
deliver the package containing MDMA. The evidence also demonstrated that, based on his
previous drug activity and previous arrangements with Patrick and Escobol for a package of
MDMA to be delivered to Patrick’s address, defendant likely was not mistaken regarding the
contents of the package. Thus, the contents of defendant’s cell phone were offered for a
nonpropensity purposes and did not constitute inadmissible other-acts evidence. See Jackson, 498
Mich at 259-260.
The trial court did not err by admitting the text messages between defendant and the
unnamed individuals who were not involved in the drug conspiracy. Similarly, the trial court did
not err by admitting the other contents of defendant’s cell phone, including the photographs and
the text messages exchanged between defendant, Escobol, and Patrick.
IV. PATRICK’S TEXT MESSAGES
Defendant next argues that the text messages contained in Patrick’s cell phone were not
relevant to the charged offenses and constituted inadmissible hearsay evidence. We disagree
because, as discussed earlier in Part III(A), defendant waived this issue.
V. RELEVANCE OF EVIDENCE FROM PATRICK’S HOUSE
Defendant also argues that evidence obtained from Patrick’s house was not relevant, the
probative value was substantially outweighed by the danger of unfair prejudice, and the evidence
constituted inadmissible other-acts evidence. We disagree.
A. PRESERVATION AND STANDARD OF REVIEW
Because defendant challenged the relevancy of evidence obtained from Patrick’s residence
at trial, this issue is preserved. See Gaines, 306 Mich App at 306. But defendant failed to argue
at trial or in any motions that this evidence was prejudicial or inadmissible other-acts evidence.
Thus, defendant’s challenge to the admissibility of evidence from Patrick’s residence is
unpreserved as to those grounds. See id.
Defendant’s preserved evidentiary challenge is reviewed for an abuse of discretion. See
Mann, 288 Mich App 117. His unpreserved challenge, however, is reviewed for plain error. See
Cain, 498 Mich at 116.

-8-

B. ANALYSIS
Detective Liggett obtained a warrant to search Patrick’s residence. Defendant does not
argue that the police officers lacked authority pursuant to the warrant to search Patrick’s house or
that the evidence that the police officers seized exceeded the scope of the warrant. Instead, he
argues only that the evidence seized from Patrick’s house was not admissible at trial.
The evidence of drug activity that was obtained from Patrick’s residence was relevant to
the charge of conspiracy to deliver or possess with the intent to deliver MDMA. The evidence
included containers that were used to package and sell drugs and a digital scale to weigh drugs for
sale. Although there was no evidence presented that defendant entered Patrick’s basement or that
any of the evidence seized from Patrick’s house belonged to defendant, the evidence of drug
activity was relevant to the scope of the conspiracy to deliver MDMA. The evidence demonstrated
that Patrick was involved in drug activity, which, on the basis of the packaging materials, could
have included drug sales. This drug activity could have been a part of the conspiracy among
defendant, Patrick, and Escobol, which was supported by evidence that defendant had previously
communicated with Patrick and Escobol regarding the purchase and sale of ketamine and MDMA,
and the fact that defendant received the package with 1,000 grams of MDMA from Patrick’s house.
It was a matter for the jury to determine whether this evidence demonstrated drug activity related
to the conspiracy among defendant, Patrick, and Escobol or whether the drug activity was not
related to the charges against defendant. See Dunigan, 299 Mich App at 582 (explaining that it is
the jury’s role to determine the weight and credibility of the evidence). Because the evidence
seized from Patrick’s residence had a tendency to prove one or more facts of consequence and an
element of the conspiracy offense, the evidence was relevant. See MRE 401; Martzke, 251 Mich
App at 293.
Additionally, the probative value of the evidence of drug activity was not substantially
outweighed by the danger of unfair prejudice. The evidence was probative of Patrick’s
involvement in the packaging, sale, and delivery of controlled substances. The evidence of drug
activity that could be related to MDMA was probative of the conspiracy among defendant, Patrick,
and Escobol to deliver or possess with the intent to deliver MDMA and that the conspiracy could
have included other sales and deliveries of MDMA in addition to the delivery on November 20,
2017. There was evidence that defendant remained in the house for approximately 15 minutes and
that defendant possessed controlled substances and a metal spoon when the police officers arrested
him, showing that defendant could have obtained the drugs and spoon from Patrick’s house in
furtherance of the conspiracy. Additionally, defendant did not demonstrate that the evidence
confused or mislead the jury. Defendant also failed to demonstrate that the evidence inserted
extraneous considerations to the merits of the case, such as appeals to the jury’s bias, sympathy,
anger, or shock. See Fisher, 449 Mich at 451-452. Thus, the evidence seized from Patrick’s
residence related to drug activity was probative of the elements of the conspiracy offense, and
defendant did not demonstrate that the evidence was inadmissible on the basis of the danger of
unfair prejudice. See MRE 403; Fisher, 449 Mich at 453-454.
Finally, the evidence seized from Patrick’s residence did not constitute inadmissible otheracts evidence. As stated earlier, MRE 404(b) applies to prior acts. See Goddard, 429 Mich at 518.
To the extent that the evidence suggested that Patrick was a drug user, the evidence did not directly
portray Patrick using controlled substances or suggest that Patrick had previous drug-related
-9-

convictions. The evidence also did not directly portray defendant as a drug user or suggest that
defendant had previous drug-related convictions. Further, the evidence was offered for
nonpropensity purposes, including Patrick’s and defendant’s knowledge that the package
contained a controlled substance and knowledge that they were participating in the agreement with
Escobol to possess, transport, and deliver the package containing MDMA. Accordingly, the
contents of defendant’s cell phone did not constitute inadmissible other-acts evidence. See
Jackson, 498 Mich at 259-260.
VI. OV 19
Defendant argues that the trial court improperly scored offense variable (OV) 19 and that
OV 19 is unconstitutionally vague. We disagree.
A. PRESERVATION AND STANDARD OF REVIEW
Defendant failed to challenge the constitutionality of OV 19 before the trial court. Thus,
this issue is not properly preserved for appellate review. People v Sands, 261 Mich App 158, 160;
680 NW2d 500 (2004). Defendant did, however, challenge the scoring of OV 19 at sentencing.
Thus, the scoring issue is preserved. See MCL 769.34(10); People v Sours, 315 Mich App 346,
348; 890 NW2d 401 (2016).
“Trial courts are afforded broad discretion in calculating sentencing guidelines, and
appellate review of those calculations is very limited. Scoring decisions for which there is any
evidence in support will be upheld.” People v Elliott, 215 Mich App 259, 260; 544 NW2d 748
(1996) (citation omitted). When reviewing a trial court’s scoring decision, the trial court’s “factual
determinations are reviewed for clear error and must be supported by a preponderance of the
evidence.” People v Hardy, 494 Mich 430, 438; 835 NW2d 340 (2013). “A finding of fact is
clearly erroneous if, after a review of the entire record, an appellate court is left with a definite and
firm conviction that a mistake has been made.” People v Antwine, 293 Mich App 192, 194; 809
NW2d 439 (2011) (citation and quotation marks omitted). “Whether the facts, as found, are
adequate to satisfy the scoring conditions prescribed by statute, i.e., the application of the facts to
the law, is a question of statutory interpretation, which an appellate court reviews de novo.” Hardy,
494 Mich at 438. Finally, because defendant’s challenge to the constitutionality of OV 19 is
unpreserved that issue is preserved for plain error. See Cain, 498 Mich at 116.
B. ANALYSIS
The trial court properly assessed 10 points for OV 19 because the evidence and testimony
presented at trial supported the conclusion that defendant interfered with the administration of
justice.
The trial court is required to assess 10 points for OV 19 when “[t]he offender otherwise
interfered with or attempted to interfere with the administration of justice.” MCL 777.49(c). A
trial court may consider conduct that occurs after the defendant completes the sentencing offense
when the trial court scores OV 19. People v Smith, 488 Mich 193, 195, 202; 793 NW2d 666
(2010).

-10-

“[T]he plain and ordinary meaning of ‘interfere with the administration of justice’ for
purposes of OV 19 is to oppose so as to hamper, hinder, or obstruct the act or process of
administering judgment of individuals or causes by judicial process.” People v Hershey, 303 Mich
App 330, 343; 844 NW2d 127 (2013). “Our Supreme Court has determined that the phrase
‘interfered with or attempted to interfere with the administration of justice’ is broader than the
concept of obstruction of justice and that conduct subject to scoring under OV 19 ‘does not have
to necessarily rise to the level of a chargeable offense . . . .’ ” People v Passage, 277 Mich App
175, 179-180; 743 NW2d 746 (2007) (citation omitted). Conduct that interferes with the
administration of justice includes actions that would impede an investigation, such as providing a
false name to the police, attempting to deceive the police during their investigation, or threatening
or intimidating victims or witnesses. Hershey, 303 Mich App at 344; People v Barbee, 470 Mich
283, 288; 681 NW2d 348 (2004). Attempting to deceive police during an investigation can
constitute interference or attempted interference with the administration of justice. See Barbee,
470 Mich at 288; Hershey, 303 Mich App at 344.
In this case, the evidence supports the legal conclusion that defendant interfered with the
police investigation and attempted to deceive the police officers. Defendant provided several
statements to the police officers during his arrest that were not consistent with his statements to
Detective Liggett during their interview. Defendant stated that Patrick did not know Escobol, but
then later stated that Escobol arranged the drug delivery on November 20, 2017, and that he and
Escobol had used Patrick’s address for a previous delivery of MDMA. Defendant also told
Detective Liggett that he would not have picked up the package had he known the amount of
MDMA. However, Patrick made defendant aware of the size of the package, and defendant
nonetheless arrived at Patrick’s to pick up the package of MDMA. By providing the police with
this false information, defendant attempted to obfuscate the police officers’ investigation of the
drug conspiracy and the respective roles of defendant, Patrick, and Escobol in the purchase and
sale of controlled substances. Defendant’s contradictory statements also established that defendant
attempted to minimize his role in the delivery of MDMA and the conspiracy among himself,
Patrick, and Escobol.
There was sufficient evidence to show that defendant attempted to deceive the police
officers. See Barbee, 470 Mich at 288; Hershey, 303 Mich App at 344. This is not to say that OV
19 should necessarily be scored any time a defendant fails to convey the complete truth to a police
officer. Nevertheless, it is appropriate to score OV 19 where a defendant engages in “fabrications
that were self-serving attempts at deception obviously aimed at leading police investigators astray
or even diverting suspicion onto others and away from him.” People v Ericksen, 288 Mich App
192, 204; 793 NW2d 120 (2010). Thus, the trial court did not err by assessing 10 points for OV
19 on the basis of defendant’s interference or attempted interference with the administration of
justice pursuant to MCL 777.49(c). See Barbee, 470 Mich at 288.5
We now turn to defendant’s argument that OV 19 is unconstitutionally vague. Statutes are
presumed to be constitutional and are so construed unless their unconstitutionality is clearly

Additionally, “a sentence within the guidelines range is presumptively proportionate.” People v
Powell, 278 Mich App 318, 323; 750 NW2d 607 (2008).
5

-11-

apparent. People v Deroche, 299 Mich App 301, 305; 829 NW2d 891 (2013). The party
challenging the constitutionality of a statute has the burden of proving its invalidity. People v
Sadows, 283 Mich App 65, 67; 768 NW2d 93 (2009). In determining whether a statute is
unconstitutionally vague, a court must consider the entire text of the statute and accord the words
their ordinary meanings. People v Roberts, 292 Mich App 492, 497; 808 NW2d 290 (2011).
A statute may be challenged for vagueness on three grounds: (1) it is overbroad and
impinges on First Amendment freedoms, (2) it does not provide fair notice of the
conduct proscribed, or (3) it is so indefinite that it confers unstructured and
unlimited discretion on the trier of fact to determine whether an offense has been
committed. Id. (quotation marks and citation omitted).]
Defendant specifically challenges the constitutionality of MCL 777.49 for failure to give
fair notice. To give fair notice, the statute “must give a person of ordinary intelligence a reasonable
opportunity to know what is prohibited.” People v Perez-DeLeon, 224 Mich App 43, 46; 568
NW2d 324 (1997) (citation omitted). A statute is not unconstitutionally vague if its meaning is
“fairly ascertainable by reference to judicial interpretations, the common law, dictionaries,
treatises, or the commonly accepted meanings of words.” People v Lockett, 295 Mich App 165,
174; 814 NW2d 295 (2012) (quotation marks and citation omitted).
As discussed earlier, OV 19 repeatedly has been interpreted as applying to affirmative
conduct that impedes a criminal investigation, even if that conduct occurred after the offense. See,
e.g., Barbee, 470 Mich at 288; Hershey, 303 Mich App at 344. Furthermore, conduct may be
considered to have “interfered with the administration of justice” even if that conduct does not rise
to the level of a criminal obstruction of justice charge. Consequently, a person of ordinary
intelligence has a reasonable opportunity to know what type of conduct is prohibited if he or she
read these opinions. Similarly, Michigan courts have consistently required a defendant to commit
an affirmative act that impedes an investigation or court proceedings to constitute interference with
the administration of justice. See, e.g., Barbee, 470 Mich at 288; Hershey, 303 Mich App at 344.
Thus, MCL 777.49 is not unconstitutionally vague.
VII. CONCLUSION
For the reasons stated earlier, defendant’s convictions and sentences are affirmed.
/s/ Christopher M. Murray
/s/ Amy Ronayne Krause
/s/ Jonathan Tukel

-12-

Appendix B

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

December 22, 2020

Chief Justice

David F. Viviano,

Chief Justice Pro Tem

161553

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

Justices

SC: 161553
COA: 345895
Oakland CC: 2018-266994-FH

SPENCER RICHARD ANDREWS,
Defendant-Appellant.
_________________________________________/
On order of the Court, the application for leave to appeal the May 14, 2020 judgment
of the Court of Appeals is considered, and it is DENIED, because we are not persuaded
that the questions presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
December 22, 2020
s1214

Clerk

Appendix C

OFFER OF PROOF

Declarant STUART G. FRIEDMAN hereby declares as follows:
1. I am Mr. Andrews’ appellate attorney. I am making this Offer of Proof based
on my review of the file and my investigation of the circumstances of this
case.
2. Immediately after retrieving counsel’s file, I reviewed the same. I found only
one search warrant in the case. That search warrant authorized the search of
the home of Devon Patrick and all electronics and persons found on the
premises.
3. The search warrant attached to this motion and brief is a copy of the copy
obtained from trial counsel and one which counsel believes is a true and
correct version of the one issued by the Court.
4. I have not located a second search warrant in this matter and verily believes
one does not exist for the search of the Defendant’s cell phone.
5. My review of the file indicates that Mr. Andrews was not arrested at the
Patrick home. He was traveling in a car with the package containing what
proved to be the controlled substance.
6. The controlled substances which had been shipped from Belgium had been
concealed in a speaker which had been reassembled and repackaged
presumably by the shipper.
7. Either the arresting authority or US Customs and Border Protection had
inserted a tracking device in the speaker.
8. The police were following the signal and the Defendant. When they had
communication problems with the tracker they made the decision to stop the
car in which the Defendant was travelling.
9. While the record is not entirely clear about how far from the Patrick home the
stop took place, it appears to be somewhere in the neighborhood of one to
five miles.

1

10. The attached transcription of the interrogation of Mr. Andrews is not an
official court transcript. It was prepared by counsel’s office, but counsel
believes it to be an accurate transcription. Is provided as an aid to this Court.
A copy of the video which was admitted at trial is being filed with the Clerk
of the Court and any differences between counsel’s transcription and the
video should be resolved in favor of the video.
11. In reviewing counsel’s file, I found no evidence that a motion to suppress had
been considered. There were no draft motions or research into the issue
outlined in Issue I.
12. After identifying the issue, I emailed Attorney Jordan Zupke articulated the
issue and requested him to explain why he did not raise the issue.
13. I have received no response to this inquiry.
14. During a conference call with the Defendant from prison, the Defendant
independently identified the search and seizure issue and stated that he had
raised the issue with trial counsel and never received a response.
15. Counsel has been a practicing attorney for twenty-seven years who has
handled many criminal matters at both the trial and appellate level. The
undersigned believes the search and seizure is a very substantial issue and a
probable winner.
16. Without this evidence, the police would not have had the photographs, text
messages, or much of the evidence that was introduced against the
Defendant.
17. Without this evidence, the Defendant’s mere presence defense would have
been significantly stronger.
18. I declare that the foregoing is true and correct to the best of my information,
knowledge, and belief.

2

FURTHER DECLARANT SAYETH NOT.

___________________________________
STUART G. FRIEDMAN
DATED: May 21, 2019

3

Appendix D

Appendix E

Spencer Andrews
Officer Roseau

Unofficial Transcription of
Interrogation as Provided to
State Courts (The video recording
is filed with the Court)

Officer 1:

We’re here about yesterday’s incident

Spencer:

Yes.. Yeah.. That was..

Officer 1:

It was unpleasant I’m sure.

Spencer:

Yeah. I just don’t understand but..

Officer 1:

So, I’ll be checking.. Confirming few things about
you and kind of explain what’s going on why we’re
here and what the plan is.

Spencer:

Okay

Officer 1:

Fair enough?

Spencer:

Okay. Yeah

Officer 1:

Alright. What’s your full name?

Spencer:

Spencer Richard Andrews

Officer 1:

And then where are you staying at?

Spencer:

Uhmm

Officer 1:

Where do you.. Where is your.. Where is your mail?

Spencer:

4120 Anthony

Officer 1:

Okay. But I understand you’re staying somewhere else?

Spencer:

Yeah. I mean. I kind of stay wherever. I kind of hop
around a little bit.

Officer 1:

What is it?

Spencer:

I get my mail at my parent’s house.

Officer 1:

Okay, but you don’t live there though.

Spencer:

Yeah.

Officer 1:

Well. Other sources and looks like you said
yesterday, it was Shanty who wrote this down he said
you’re staying in East Grand Blvd.

Spencer:

Yeah. Pretty most part yes but I kind of hop around
a little bit. But yeah, my mail goes to my parent’s
house and then for the most part I sleep at that
address right there.

Officer 1:

the 2566 East apartment 309? Is that correct?

Spencer:

Yeah

Officer 1:

Whose apartment is that?

Spencer:

It’s mine

Officer 1:

(laugh) alright. It’s your apartment?

Spencer:

Yeah

Officer 1:

Then why won’t you just say yeah I got my mail in my
parent’s house but I got my own apartment

Spencer:

Yeah, No, that’s what I meant I mean.. I’m not there
all the time as well, that’s what I’m saying

Officer 1:

Do you have a girlfriend?

Spencer:

No.

Officer 1:

If I had an apartment, I get it because it’s not a
permanent location and you usually have a lease or
you rent for some amount of time. Like I have my
apartment and I have a year contract too. In some
places like motels sometimes they run by a week some
places run by a month. If you have a contract it’s
your apartment then..

Spencer:

I was not at that time at a permanent location for
me, it’s kind of what I meant. It is mine right now
but a month lease it’s not like a permanent location.

Officer 1:

How long have you been there?

Spencer:

For only like a month?

Officer 1:

okay so..

Spencer:

Yes.. its like.. I was going out from detention.. I
just woke up so my brain is like a little.. but yes
that’s where I sleep.

Officer 1:

Do you have furniture there?

Spencer:

Hmm.. I have a couch

Officer 1:

Do you have a bed?

Spencer:

yeah

Officer 1:

Do you have a roommate?

Spencer:

No

Officer 1:

Does anybody else live there?

Spencer:

No

Officer 1:

Are you lying to me?

Spencer:

No

Officer 1:

I don’t really care. But frankly I’m just seeing the
set of actions that’s why I’m asking you said no.. I
don’t understand.. Anyway..

Spencer:

No I’m sorry my brain just..

Officer 1:

Right. Either way. These are just basic questions
that I’m asking and you’re already.. I understand
being nervous cause you’re in jail. But let’s be
honest, it’s not your first time in jail, it’s not
your second time on jail. Yesterday stuff was going
off. Would you agree?

Spencer:

Yeah

Officer 1:

And guns and people in masks a lot of shit going on.
And it’s cold outside.

Spencer:

Yeah

Officer 1:

And here we are 24hrs later. This is my investigation
of protective resolution. We are with the Narcotics
unit.

Spencer:

Okay

Officer 1:

So you’re obviously in this situation.

Spencer:

Yes.

Officer 1:

We have time to review things like who you are. I
don’t know you. I’m not going to judge you. I never
judge people. I tried not to. Sometimes I try to
always be a blank sheet but when we start like who
is this person so then we run things like criminal
records. It doesn’t say someone’s character but it
does say, in your case you’ve been involved with drug
situations on a multiple occasions over the last 4
years, 3 or 4 years right?

Spencer:

yeah

Officer 1:

so then, that does put a frame on mind on what’s
going on especially because we’re investigating
narcotics right?

Spencer:

Yeah. I understand.

Officer 1:

When we started talking, we just talked about simple
stuffs like where you stay and now we’re getting
sketchy answers.

Spencer:

It was just my.. my.. thought.. but uhm..yeah..

Officer 1:

You know, I don’t know this situation I didn’t read
any reports. I’m just looking at the criminal

history. It doesn’t explain things or why things
happened or if there’s someone else shit on the floor.
And then you in charge, you know what I mean?
Spencer:

Yeah.

Officer 1:

I don’t know. But I do know there’s multiples and
then multiple ones involving with some MDMA some
ecstasy MDMA 1 or 2, cocaine or another narcotic. How
did you get out twice?

Spencer:

They are both going on at the same time.

Officer 1:

You got lucky then.

Spencer:

Yeah. I did. I’ve been trying to...

Officer 1:

But then did it fail? What happened to that?

Spencer:

No. They’re both off my record.

Officer 1:

Yeah. Did you have probation?

Spencer:

Yeah. I’ve completed it

Officer 1:

When was that completed?

Spencer:

Couple of months ago. September I think.

Officer 1:

And then here we are now again with another potential
advance situation for you which I think retroactive
that I don’t know. I don’t know. I guess it’s
something between the prosecutors. It’s not going to
look good and it’s nothing I think you’d want.

Spencer:

Yeah

Officer 1:

Another case... but that’s where you are

Spencer:

Yeah

Officer 1:

So, I have time to review other people’s files and
time to look at evidence and times to talk to homeland
security and time to talk with immigration. A lot of
things are going on and a lot of factors. Now is my
chance to talk to you about it. And we started off
with the address and marriage stuff..

Spencer:

I’m sorry. My apologies. I just woke up and..

Officer 1:

No, no. there’s not much more to do on..

Spencer:

I have been sleeping. I have sleeping disorder too
so..

Officer 1:

So, is this.. What’s your phone number?

Spencer:

703 878

Officer 1:

Okay. 586?

Spencer:

Yeah

Officer 1:

So you’re East sider?

Spencer:

Yeah

Officer 1:

Sterling Heights

Spencer:

Yes

Officer 1:

Is that where you’ve always been?

Spencer:

Yes

Officer 1:

Since you’re in Oakland County, have you only lived
Oakland County?

Spencer:

No.. Actually for a couple of months I was in Pontiac
I was staying with a friend in, pretty close, it’s
still Pontiac it’s really close to Auburn Hills for
a couple of months and then move out with another
friend for a couple of months, for like most summer
and then moved to Detroit with that apartment about
a month or so about a month or 2 ago. That was where
I was going to detention

Office 1:

You’re parents ever lived in Oakland county?

Spencer:

No. They are not. They’ve lived in Sterling Heights
either in a different location.

Officer 1:

Always Sterling Heights?

Spencer:

Yeah

Office 1:

You lived in Pontiac you said.

Spencer:

Yes. I moved out to my parent’s house and was just
living with a friend some time last year. I was living
with one friend 4-5months and another friend for a
couple of months before I moved out and got my own
apartment which is also going to be temporary.

Office 1:

So you’re 22?

Spencer:

Yes

Office 1:

You’re young.

Spencer:

Yeah.

Office 1:

Do you have a girlfriend?

Spencer:

No.

Office 1:

wife?

Spencer:

No.

Office 1:

kids?

Spencer:

No.

Office 1:

Job?

Spencer:

No. I had it couple of weeks ago

Office 1:

what did you do?

Spencer:

I was a server

Office 1:

Where?

Spencer:

at Fridays. TGI Fridays

Office 1:

at Sterling Heights? Or?

Spencer:

Utica. It going to be a long drive living in Detroit
so that’s why..

Office 1:

So, what do you do on your spare time then?

Spencer:

Well I have sleeping disorder so I sleep probably
more the most. I produce music, a little bit, cause
it’s my hobby and then do some gaming and then I’ve
been looking for a new job recently to get back on
track with since a couple of weeks I start working
at a sushi restaurant downtown. I asked music
appointments. I do that on my free time. I have a
computer and an Xbox that I can play with, and I’m
involved in the music scene. It’s just my own music
but going out introducing our music in general couple
different kinds, that’s what I do. I used to work at
a club before so I do free shows which is cool. I do
that on weekends.

Office 1:

That’s how you probably how you met Vince?

Spencer:

Yeah

Office 1:

Because he said he’s a DJ.

Spencer:

Yeah

Office 1:

So you do produce music.

Spencer:

Yeah

Office 1:

Before I go talking about Vince. Do you have any
questions for me?

Spencer:

I just want to, I guess if there’s any way for this
not to go straight to court or if there’s any way you
can..

Office 1:

Have you done something like that.. cause you can’t
get away with that

Spencer:

Yeah

Office 1:

You’ve done something like that before?

Spencer:

Yeah. All over here and there

Office 1:

With who?

Spencer:

Uhm.. with Detective Schelgel in Sterling Heights

Office 1:

a major in Sterling Heights?

Spencer:

Yeah

Office 1:

We can talk some other stuff cause maybe but before
I go I wanted to just stop right in but you are
incarcerated. I mean clearly you know you’re
genuinely not relieved obviously so before I get
going I should probably read your memorandum of
rights again and which means that you’ve been
advised. Now, which you’ve been through the system
before so I’m sure you’re educated a little bit. You
don’t have to answer any questions you don’t want to
answer but if you say I want my lawyer that’s going
to stop our conversation all together. Just so you
know that

Spencer:

Okay.

Office 1:

Now I’m not saying you have to answer me but do you
get why we’re going with this?

Spencer:

Yeah, I do know that

Office 1:

It is. Just wanted to make sure you’re aware. Let me
read them and then we’ll go from there. So you have
the right to remain silent. Anything you say can/will
be used against you in the court of law. You have the
right to talk to a lawyer before answering any
questions and you can get a lawyer present with you
while you are answering any questions. If you cannot
afford a lawyer one will be appointed to represent
you before any questioning if you wish. You have the
right to decide at any time before or during
questioning to use your right to remain silent and
your right to talk with the lawyer while we read the
questions. So do you understand those rights?

Spencer:

Yes.

Office 1:

And you can talk with us right now.

Spencer:

Yes

Office 1:

You understand those. You can retract that. Okay then
if you don’t want to answer one particular question

and you want to invoke your memorandum of rights we’ll
stop the conversation.
Spencer:

Okay

Office 1:

You can read it if you want. Sign it that you read
them and understand them. And we’ll continue. Okay,
let’s go more or less...

Spencer:

I know that my story seems like I’m just trying to
bias but I’ve been trying to get away from this stuff
for a while. I realized I have a problem and I really
have a bad decision making. And I’ve been like ever
since I first got out since I’ve been on probation
I’ve really been trying to get away from this stuff
but I’ve been so engrossed in it with my friends in
the music and everything for so long. It’s been really
hard and like I haven’t had a job so I haven’t had
that much money recently and this opportunity came
up where I can make some money and as soon as I heard
it, my brain was like, maybe this will help. And
though whatever was on that package did not belong
to me and that’s the one thing that I want to focus
on and because as of right now that’s what I am charge
with. And honestly if it was all mine, then I would
admit it. Like I have done exact the same thing in
the past with my other cases with the police
department. I was very straight up with what I had
and what it was. And we took it forward from there.
But this time, I don’t know, I guess it’s in MDMA now
but I don’t know how much is in that package. I don’t
know what that package was. Honestly, if I knew how
big it was, or the quantity before I took on the job
then I would’ve said no way, like, no way. I figured
when he said just like “hey can you grab this little
thing for me” and like “you can get a couple hundred
bucks because I can’t go get it myself.” Then I
figured out it was a small package maybe a little bit
like something in it but I didn’t even want to know
what’s in it because I was just trying to do it for
quick cash just like for rent payment for next month.

Officer 1:

How much is your rent?

Spencer:

900.

Officer 1:

900?

Spencer:

Yeah. It’s technically 2 bedroom 2 bath.

Officer 1:

Don’t you have a roommate?

Spencer:

No, actually, well I just kicked him out just last
couple of days ago.

Officer 1:

You did have a roommate. When you did this thing..

Spencer:

Yeah. He was stealing from me. So that’s the thing
and actually I’m at the point of my life where half
of me is like..

Officer 1:

How much, you said MDMA, how much was in there?

Spencer:

I don’t know.. like.. like.. like what I said I would
tell you if...

Officer 1:

Like you said if you’d know how much was in there..

Spencer:

I don’t know. I don’t know. As soon as I saw that
package, I was like oh wow, Maybe it’s a little bit
more of what I thought it would but I was already in
that situation. I was already there at the house
like.. so I was nervous, let’s hope for the best.
Obviously that’s what happened. In my head I wasn’t
thinking it was that much and my buddy’s needed a
favour, and I needed the money, so and.. Honestly as
soon as I saw that box I was a little hesitant to it.
But if I knew it could be that big of a package then
I would’ve said no way to the favour. I don’t know
how much was in there..

Officer 1:

So you went to the house with the... with Vince..
with Vinnie? You went inside, grabbed the package..

Spencer:

Yeah, we never opened it.. we didn’t..

Officer 1:

Yeah, I know. I know. And then you guys got pulled
over.

Spencer:

Yeah

Officer 1:

It doesn’t vowed well for you. You were the one
retrieving, I know is here’s the package. Deven is
his name

Spencer:

Yeah.

Officer 1:

Deven’s house, parent’s house, whatever, You come
with Vinnie, get the package, and then you leave. And
then you got pulled over. So here we got Vince in
possession of it but we had eye witnesses watched you
take the package. We’ve talked to Deven, we talked
to Vince, and we’re talking to you now. And why do
you think we saved you for last? Because you’re the
dude.

Spencer:

Yeah, I understand that because I have done like I
said...

Officer 1:

You’re in a bad situation.

Spencer:

I know that. It looks bad for me and I know this was
regarding to the last 24 hrs. It looks actually bad
for me cause I had.. Now that I have sold in the
past, I’ve sold to Benny, I’ve sold to Deven. This
opportunity just came up where I can just make some
quick money. I’ve been trying to step away from those
drugs and selling and I’ve been doing for months now.
It’s been a problem for me and I admit that I’ve gone
through 2 different therapies.

Officer 1:

Who’s the dude?

Spencer:

Huh. He lives in Detroit. His name is Zac

Officer 1:

okay. White guy? Black guy?

Spencer:

White guy

Officer 1:

How old is he?

Spencer:

I don’t know. He’s probably like 30

Officer 1:

In your phone is it Zach? Z-a-c-h? Z-a-c-k?

Spencer:

Yeah. Z-a-c.

Officer 1:

Zac what?

Spencer:

I know his last name starts with E. It’s on my
Facebook. I just don’t know it. I just don’t know how
to spell it. It’s spelled like S-s-e-s-q.. It’s a
really weird one.

Officer 1:

Was he a different ethnicity? Is it like a.. sound
like Miller..

Spencer:

No. it’s like E-s-q-u-i-v-a or something.

Officer 1:

Dark hair? Light hair?

Spencer:

Dark long black hair like it goes on the shoulders
behind him.

Officer 1:

Tall guy? Big guy?

Spencer:

Almost my height

Officer 1:

So like. You’re tall. So you think he is

Spencer:

So probably like 6’4” or 6’2’

Officer 1:

So you’re 6’3”. Fat? Skinny?

Spencer:

No. very skinny

Officer 1:

How do you know him?

Spencer:

I just met him a while back through a friend of a
friend.

Officer 1:

What’s a while back?

Spencer:

Probably like a year or maybe a little bit longer
than that. He actually lives in my building and I
hang out with him that’s why I found out about the
building and then that’s why I ended up renting it
for a month cause I was like this place is pretty
cool and I need place to stay.

Officer 1:

Was he your roommate?

Spencer:

No.

Officer 1:

Was he stealing from you?

Spencer:

No. He wasn’t

Officer 1:

Okay, you’re on a 3rd floor, right?

Spencer:

Yeah

Officer 1:

Is he on the 3rd floor?

Spencer:

He’s on the 1st floor.

Officer 1:

The 1st floor.

Spencer:

yeah

Officer 1:

Okay. Anything further to describe where he’s at?
Like, I don’t know your complex or your building I
just know you park here and you get off the bus and
walk into this store or whatever. You’re at 303 right?

Spencer:

Yeah. No. 309

Officer 1:

309. So what’s he?

Spencer:

111, I think?

Officer 1:

You don’t think you know. Cause there’s this one woman
that’ll be easy. Okay. We’re not going to go anything
with him right now. But like I said when you’re the
guy, we knew you’re the guy. As far as my
investigation goes right now everything is pointing
on you in all way on this. Do you know how much was
in there? Because you’re disclaiming you don’t know.

Spencer:

Let me...

Officer 1:

Do you know how much you’re fucked? Potentially..

Spencer:

It was a lot, wasn’t it?

Officer 1:

Guess. This is a guess.

Spencer:

It was like a K.

Officer 1:

It was just over a K? That’s a lot.

Spencer:

I know.. I know..

Officer 1:

We’re looking at your criminal history because I
don’t know you. I can’t judge you but it shows here
that under 25g. When it’s less than 25g it’s usually
like a possession. When people look at things we all
get different views of things and some various
things. We’re not talking about murder but when
people look at drugs quite an easy stuff.. 25g is
under, like oh, he just used a little bit, he parties,
who cares, right? It’s just personal use, not hurting
anybody. But when we’re talking about a kilo, a
thousand grams, how are you going to argue that it’s
personal use.

Spencer:

I know and there’s...

Officer 1:

And now the world takes a different views, like this
is a bad person. I’m not saying everybody but a lot
of people look at that way.

Spencer:

I know. I’ve felt out with this multiple years. I’ve
been trying so, so, so hard to get away from this but
it’s like.. when you’re like.. it’s almost like when
you’re a regular addict when you have problems with
other drugs but it’s when you’re so engrossed in it,
when you try to step out of it, cause I have this
case in sterling heights too. I’ve been trying to do
work for and I’ve been trying to help myself there
and I was trying to.. I wanted to stay kind of
involved so I could find something that I could give
them. Or see if I can help myself out there and just
be done with it all. I was kind of trying to middle
ground there I was trying to get involved but try not
to get too involved. This is my worst possible
nightmare. I do not mean for this to happen at all,
obviously. I was trying to get.. stay like someone
involved so I could find some deal on the street that
has deal. Like some share. I’ve lost multiple friends
there..

Officer 1:

It’s a number one problem

Spencer:

I would be so happy to give up some deal or like
that. Obviously I wouldn’t try to give up my close
friends or anything but I would be so happy. I don’t

even like call you guys and be like “hey I know what
this guy is doing here” and so you guys can go and
bust him. Cause I’ve lost some of my friends from
cause people
Officer 1:

You can’t just tell me more how these guys sound to
probably buy it for.

Spencer:

Yeah. I figured. I know it’s just my history.
Everything looks bad on me right now and I can’t do
anything about it cause I can’t change what I’ve done,
what I’ve been caught with and I’m just being upfront
with you guys. I’m not just trying to bullshit you.
Like, I’ve been trying to get my lawyers back on track
after this. I’ve successfully completed 2 years
progression, drug testing 3 times a week, 2NA 2 times
a week; I have 2 12 week programs, one in Sacred
Heart and one to Community Corrections. I’ve
completed those. One meeting 2or3 times a week
individually and there was another one 1 time a week.
I have successfully completed both of those..

Officer 1:

And here you are.

Spencer:

I know and that’s what I’m...

Officer 1:

So what’s the deal? What was the exact proposal? How
did this come to happen?

Spencer:

He was just offering me some money. He was like, I
will give you a couple hundred dollars if you will
just can grab this thing for me cause he didn’t have
a car. He didn’t have a working car. And then I was
hanging out with Vinnie and asked him to just drive
me and he’s like okay.

Officer 1:

Who ordered it?

Spencer:

Zac did. That’s what I’m saying

Officer 1:

Zac knows Deven?

Spencer:

Not personally

Officer 1:

How did Zac needed a name and address?

Spencer:

He.. I gave it to him cause he was like “hey do you
have any buddy cause Zac paid Deven too for it.

Officer 1:

Who’s going to pay it?

Spencer:

The pay was like 500 I think. Or he didn’t say
exactly. It was depending on what it was I guess.

Officer 1:

How much did he pay Deven?

Spencer:

500.

Officer 1:

Did he already pay Deven? Did he already pay you? Or
that was what he’s going to do?

Spencer:

He was going to do that.

Officer 1:

And here we are. You are in jail. Deven’s at jail.
And Zac, we just heard his name.

Spencer:

Yeah, cause...

Officer 1:

Sounds like you had a little hard work on here too

Spencer:

I know. That’s the thing I am most upset about right
now. I don’t have that much money or the means to get
that kind of weed here anymore. I don’t have that
much money, I don’t have the means, the connections
anymore at least..

Officer 1:

How does that give the means?

Spencer:

Cause he’s been doing it for so long…he’s

Officer 1:

Said he doesn’t have a car

Officer 2:

He can’t afford a car?

Spencer:

He can… no, he can afford a car… he just didn’t have
one at the time by the moment when the package arrives

Officer 1:

Or..

Spencer:

He just got in from... or was from.. Was it from New
York City I think, because he was out of town. And
then I just didn’t have means to get it and so I was
just probably going through his mind too for me to
go get it and him to have to take that risk and I
just … I was like… I wasn’t…

Officer 1:

I was wondering if, weren’t you questioning, how much
am I getting? This isn’t going to give me 500 dollars,
Deven in 500

Spencer:

Yeah

Officer 1:

I mean you got to,

Spencer:

Yeah.

Officer 1:

That’s a lot of money to do your end of it which I
want you to explain and then his end of it. I mean
so he’s got a thousand dollar for you guys to do
something, bring him his package?

Spencer:

yeah and like I said I wasn’t thinking or like I
was couple day I was busted for a couple of weeks.
It was kind of hard for me just because I didn’t

have a job and my car hasn’t really been up to par
And like I’m a bit low of money and I can go on and
on but I know you guys don’t really care.
Officer 1:

What’s Vince’s know about this?

Spencer:

Same thing.

Officer 1:

What?

Spencer:

That there was this package there that I just asked
him for a ride to, he was around and..

Officer 1:

How much is Vince getting paid?

Spencer:

I mean. I don’t really wish to do me a favour cause
he was around. I was really getting some time
specifically tell, talk to him

Officer 1:

Sweet. Is it you and Zac?

Spencer:

Just me, all me, me and him. I didn’t specifically
tell him I would give him this much. I was just like
“Hey, can you give me a ride to Pontiac. And so I can
give this thing. If you’re not doing anything.”

Officer 1:

What did you tell him? Like they get this thing.

Spencer:

The package.

Officer 1:

What did he think the package was?

Spencer:

Probably it was the same thing but I didn’t know how
much was in there. I assumed it was something like
MDMA but I’ve got no idea how much was in there.
Obviously if I knew it was this much then I would’ve..

Officer 1:

It still has called Molly on that..

Spencer:

Yeah.

Officer 1:

Okay. Just making sure..

Spencer:

Yeah

Officer 1:

It’s not a name or something like

Spencer:

Yeah. Molly is the street name. MDMA is the official.

Officer 1:

Yeah. How about the MSD and shit like that

Spencer:

It’s still around.

Officer 1:

Okay so..

Spencer:

That’s just where it comes to me. I’m just in this
desperate situation and I just can’t. For it not, for
the drugs not belonging to me I just don’t want to
get this on.

Officer 1:

That’s what it appears. You understand what we’re
doing now is the investigation part of it. We have
to present a package report to the prosecutor based
on our findings. And what our recommendations or
requests are, obviously, the prosecutor’s the one
ultimately does the charging but we have a big
influence cause we’re trying to get the full picture.
So, with that being the case, what you’re saying, Zac
and your relation..

Spencer:

What I’m saying..

Officer 1:

What does Zac got in for this? What do you know that
he knows?

Spencer:

He has been involved with the techno scene and he’s
been involved for a while so he knows how to pull up
some money. I don’t know too well, too personally,
we have a pretty good business relationship in the
past but we kind of like...our friends.. We talk about
some things but we don’t hang out on a regular basis..

Officer 1:

Enough for you wanting to move to the same building.

Spencer:

Yeah, that was true but it was more show of like a
good opportunity and..

Officer 1:

Well, personally if it was me, look at this from my
point, either you’re minimizing, which is natural, I
want the truth, as honest as you can be, minimizing
to get your involvement on it. But here we have
situation where you pick up the package, you’re
taking some MDMAs, I suspected it was MDMAs, and you
know you’re getting paid. And you’re the one passed
down. So if it was me, I’m not telling you what to
do. But if it was me, I’d be like, here’s what’s
going on, what the fuck, I know you’ve already said
that. But I would be presenting, this is how I know
the dude, he made the call, he placed the order...

Spencer:

Yeah, He has the money and...

Officer 1:

I don’t know. Because you told me he doesn’t have the
money.

Spencer:

No, I didn’t said no that. He definitely has money.
I just said he didn’t have access to get through. He
didn’t have means yet. And that was it. All we were
doing was just carrying that was I guess you could
call it. Like I said I don’t know how much money he
has but obviously if it’s this much he has a good
amount. And he probably has partners too and that’s

why he could get this. But I don’t have the means, I
don’t have the money to do this. And I guess this is
where it comes back to you guys cause if you put it
on me..
Officer 1:

I’m not trying to pin it..

Spencer:

I know.. I’m just saying..

Officer 1:

I want the right person to get charged, but as of
now, were you or were you not in possession of a kilo
of MDMA?

Spencer:

I was. I was but I’m just trying to say if you look
at it in what I’m saying, and just hypothetically if
you do believe me, about him, there will be another
kilo coming probably pretty soon. If I’m the one that
goes down, because I don’t have the money or anything
to get one. If I’m the one that goes down, that will
come back around. That’s what I’m saying cause, yeah,
you took a kilo off the streets, and that’s big bust
for you guys, but if you take me, and you take Vinnie
down, then none of us are the ones that have the
means to get more of that here. We were just the
street buyers and users..

Officer 1:

And couriers. If that’s the truth, that would be..

Spencer:

I’m not saying that you actually believe me at this
moment but I’m saying is if you look at the bigger
picture I’m just starting up a mess up on your shoes
where there would be more better for you in the long
run in terms of your job to..

Officer 1:

But what about now that people are blowing up on your
phone, I know you don’t have access to your phone but
what do you think is going on this other, Zac?

Spencer:

I’m sure they know what happened. I was supposed to
be back to his house but it didn’t happen, I can play
it off..

Officer 1:

Is he on your phone? Is he on your phone as Zac?

Spencer:

Yeah.

Officer 2:

I think he said that.

Officer 1:

Well. Are you willing to give us your password
voluntarily and your permission to go on your phone?

Spencer:

For what reason?

Officer 1:

For this confirmation.

Spencer:

For you to look for him?

Officer 1:

Yeah.

Spencer:

Yeah.

Officer 1:

What’s your passcode?

Spencer:

It’s..uhhmm..

Officer 1:

Type it in?

Spencer:

Yeah.. uhhmm.. My thumb, I think..

Officer 2:

Is it just a thumb? You noticed no number?

Spencer:

I think you could do a C first, but I might require
my phone

Officer 2:

What is it? Is it a 9? Or there’s more of that?

Officer 1:

Do you have like that or do you have the dots?

Spencer:

The dots.

Officer 1:

How many dots are there?

Spencer:

9.

Officer 1:

9? Oh, there’s 9?

Spencer:

Big C.

Officer 1:

Like this?

Spencer:

Yeah

Officer 1:

Start on top, right?

Spencer:

Is this the only reason you guys want to look through
my phone? Or you guys are going to dig it deeper
because I do have other personal on it anyway.

Officer 1:

Well, here’s where we’re at, you know where you’re
at. Now, you know quantity but if you’re saying that
Zac’s the dude, do you have any texts or
communications at that time on there? that states..
what’s the word.. verify.. or...

Officer 2:

that substantiate what you are telling?

Officer 1:

Yeah, like cooperate your story. Like..

Spencer:

I probably have a few texts but I do have a call with
him probably maybe like an hour before you arrested
us. I had a call with him.

Officer 1:

A phone call?

Spencer:

Yeah. A phone call with him.

Officer 1:

Oh, we can’t hear the phone call.

Spencer:

I know, I know but..

Officer 1:

You guess that would help in your story

Spencer:

Cause when he called me, he wanted to make sure I was
on the way.

Officer 2:

I was a little bit confused earlier can I just clarify
something?

Officer 1:

Absolutely

Officer 2:

Now, earlier, You’d said that Deven got paid $500.

Spencer:

I can clarify this.

Officer 2:

Go ahead.

Spencer:

Zac’s address, when you get these drugs mailed you
can only use address so many times before it gets
caught on. Zac’s already used his address. We do have
different apartment numbers but we technically have
the same address, so, he used mine either. So, he was
like, hey I need someone to send, and it’s like an
address to use to send this money and I’ll give them
a cash payment as a.. what do you call it.. I cant
think of a word for it.... just as payment for
catching his package, for putting in their name and
this is what it is. You just needed this favour for
me. And I know that Deven has a house and he’s a
trustworthy friend of mine so that’s why I suggested
him and Zac trusted my judgment of him and so and so.
This was couple of weeks ago when the order was
placed. It is international so it takes couple of
weeks. And then the mail came in yesterday Deven
called me, like hey I got the package, I told Zac.
He already the package arrived because he’s tracking.
And Zac was like hey, I’m arriving few weeks from New
York City, I can’t go get it, if I pay you can you
go grab it for me, and here we are.

Officer 2:

Okay, so, you’ve used his address more than once?

Spencer:

Used his address. Yes

Officer 2:

But you’ve used his address more than once. You have
used Deven’s address more than once for this?

Spencer:

Yes. It was used once more before.

Officer 2:

Okay. So you and Zac’s same deal?

Spencer:

Zac, Yeah.

Officer 1:

It’s Zac’s deal but you...

Spencer:

I just gave him the information, the address.

I know you’re going to..

Officer 1:

Who picked it up last time?

Spencer:

I was with Zac.

Officer 1:

Alright. So you and Zac went. So Deven knows Zac?

Spencer:

I just didn’t grab it.

Officer 2:

And did Deven ever asked or did you guys tell him
what was in it or why he had to have it delivered to
his house?

Spencer:

I think I kind of, Cause Deven came to me and say
like hey, I need some money too. It’s kind of like
almost looking out for him as well and telling him
that hey there’s a quick payment method, or quick
cash out...

Officer 2:

Why would he come to you though?

Spencer:

What do you mean?

Officer 2:

Deven, Why would he come to you if he’s looking for
a way to make some money, why would he come to you?

Spencer:

We’re just good friends. We’ve known each other for
a while that’s why we’re a little bit closer in a
friend’s game not just business game. Cause he has a
kid, if he’s like, hey I need some money I got a
child support and getting a car. Someone so happened
and we were both like, hey if you need this cash then
if you want to do this and accept the risks then
quick payment method.

Officer 2:

So, you had said that you were not aware of the
quantity that was in there.

Spencer:

No. I was not.

Officer 2:

So did Zac fuck you over and not tell you that he opt
his order or..

Spencer:

Yes. Yes.

Officer 2:

Who was he ordering before?

Spencer:

I don’t know. I just don’t know. It was a lot smaller.
The one that we picked up before was a lot smaller.

Officer 1:

Where was it brought in? The package last time?

Spencer:

It was just a brown box, that was like, that was like
this big..

Officer 1:

That wasn’t in something? It was just MDMA?

Spencer:

Yeah.

Officer 1:

There is no, it wasn’t like a teddy bear?

Spencer:

No. It wasn’t in something this time

Officer 1:

It was what?

Spencer:

No, it wasn’t with something this time?

Officer 1:

okay

Spencer:

No

Officer 1:

Last time, I’m sure you guys went back and you both
opened it and looked at it.

Spencer:

Yeah.

Officer 1:

Was it just in a black bag or something?

Spencer:

Yeah. It was not that much. I don’t know. I didn’t
weigh it out. I didn’t ask him.

Officer 2:

You’re not new to this. So how much do you think it
was?

Spencer:

The last night?

Officer 2:

Yes.

Spencer:

Probably like mid like less than a 100 grams. I don’t
know cause there was like this silver lining. I didn’t
see how much was exactly in there. I’m guessing it
was a package in a bag inside had another bag inside
a package.

Officer 2:

okay. So.

Spencer:

The last one was very small.

Officer 1:

That’s a kilo. That’s a size of a kilo. You know
that.

Spencer:

I kind of assume that it was, because of the packaging
inside it. It wasn’t that size that was containing
on it.

Officer 1:

You didn’t open it? You didn’t get to see the product?

Spencer:

No, I mean, I’ve seen it but I just gave it to him.
He made sure it was there and he was like, okay.

Officer 1:

Where did you look at it? In the car? Or when you got
right to the place?

Spencer:

When I got to the place. Like I said I wasn’t really
trying to get too involved in it so..

Officer 1:

So your work that time.

Spencer:

Yeah. it was okay.

Officer 1:

I’m sure you asked, I mean, I’m just being curious,
I wanted to know how much did he pay for it. How does
he even get the hook up?

Spencer:

There’s this start web online, things that
things where to look. If you have the money
to you can order it virtually, anyone
anything from anywhere pretty much.
technology now a days and how it works..

Officer 2:

I don’t really know how it works

Spencer:

To be honest I don’t either. In my past, when someone
has it, here and it’s available to me, then I will
get it but I definitely never dwelt to it that much.
I know about it just because it’s not even my deal
the narcotics just because it’s cool. You can order
a lot of things there not just narcotics. With the
rise of bit coin and how’s everything held at is a
kind of big cash grab with things, I just kind of
look into it a little bit more just investing..

Officer 2:

Is that how Zac?

Spencer:

Probably. Cause if you guys know it about bit coin
or anything, if you buy it probably like 50 bit coins
just like around $2000, it’s probably worth $200,000
right now. It’s gone up to 1000%. Just a random story
18 year old bought 500 bit coin when they’re work $15
a piece since 2012 and now he’s a millionaire. That’s
what I’m assuming where I came from it is investing
and doing that stuff but

Officer 1:

I meant, how do you pay the guy?

Spencer:

Bit coin or something. Anonymously through networks,
whoever who is on the other side that has the product
gets the bit coin. Sometimes there’s a 3rd party
market that’s in between like, say Zac sends a bit
coin to the market, the market tells the supplier,
hey I have the bit coin, you can send the package,
once the package has arrived, or if Zac knows it’s
here or close enough, then the market will pass the
bit coin on.

Officer 2:

It’s like overseas pay pal kind of thing?

Officer 1:

That makes sense.

Spencer:

Yeah. Like black market pay

Officer 1:

Fair enough

Officer 2:

It’s a good reference.

I have few
and access
can order
With the

Spencer:

I just wanted to know in general. You could be honest
to me. Do you guys believe my story? Or do you feel
like you could..

Officer 1:

Should we believe your story?

Spencer:

Yes

Officer 1:

(laugh)

Officer 1:

If I tell you yes..

Officer 2:

It’s more than we did yesterday

Spencer:

Yes, you know what’s going on.. it was..

Officer 2:

So hypothetical, if we were to put shit together
whatever what are you going to tell Zac?

Spencer:

I would need a little bit of time to kind of play it
off. I can think of some story, or something what
happened. Obviously, the drugs are gone I can’t just
pin them something.

Officer 2:

(laugh) you’re right.

Spencer:

I can probably.

Officer 1:

What’s going to happen to you? Because you had pulled
over. Is he an aggressive type of person? Is he going
to take it on you?

Spencer:

No, I’m not scared or something I can put a story
together that kind of thinking. I guess I could tell
him that, because nobody knows what exactly happened.
So I could just tell him that his house was, instead
of us being raided. Because I know you probably came
after Deven. So I guess I can just say that his house
in general was raided and he took the charge or
something. I just want him to know that, I can tell
him that I’m not the one who’s taking the charge and
he’s not in any jeopardy of what’s happening. And I
can come up with that story. I probably, when you
have a little bit of time to play it off with him and
just play everything natural that’s what I’m trying
to say.

Officer 1:

Here’s the problem too. You had cocaine in you, you
had ketamine. The blue pills. What are those?

Spencer:

Adderall.

Officer 1:

They’re all like aderalls to me though.

Officer 2:

Maybe different brand.

Spencer:

There are all blue, 10mg.

Officer 1:

Are they prescribed to you?

Spencer:

No.

Officer 1:

That’s easy to prove.

Spencer:

I could get prescription. I have been prescribed in
the past that’s why I have that but I don’t have a
recent prescription.

Officer 1:

But you had the MDMA. That’s kilogram of that one.
I’m going to talk to my boss about this one because
there’s potential. And you know what, I’m glad you
changed your tune from yesterday

Spencer:

Yeah.. I..

Officer 1:

I understand everything that’s going on, I have
expected you to give me multiple here today as well.
I just wanted.. you had a thousand bucks on there.

Officer 2:

12.30?

Officer 1:

He had all over a hundred bucks maybe.

Spencer:

No. Really? Some of it wasn’t mine.

Officer 1:

You had 190 and then you had some stash on your
pockets.

Spencer:

Yeah in my jacket

Officer 1:

Yeah, you had 50 in your jacket and then, oh shit,
this cocaine.

Spencer:

It’s ketamine, that little baggy

Officer 1:

Oh. Yeah, it’s ketamine?

Officer 2:

Why do you have a ketamine?

Spencer:

It’s my vice. It’s my problem

Officer 2:

Alright.

Officer 1:

And then then the Adderall. And you had that thing
in the jail. You know it’s another charge right?

Spencer:

I forgot about that to be honest. Like I told you
guys, you go through all my pockets, and to be honest,
I thought you grabbed them. I knew I had the little
baggy powder and I totally forgot that I had the
Adderall on me. I just forgot them on my pocket and
I couldn’t actually see what you’re going through so
I thought you took them out. That’s why when I got
in jail I didn’t think I had it on me. So I thought
you got them from my pocket.

Officer 1:

Well, we’re not going to charge you with that. I can’t
really tell you what the deal is. I mean, that’s a
kilo, you had ketamine and Adderall.

Spencer:

The ketamine and Adderall I honestly..

Officer 1:

That can be personal use.

Spencer:

Yeah, it’s personal use.

Officer 1:

Where did you get something like that nowadays?

Spencer:

Uhm. Where did I get that stuff specifically.. Uhm..
Just somebody that came that I ran into, I think in
a show or something. He’s like Hey I have a little
bit of ketamine, would you like some. And I just
bought maybe like gram.

Officer 1:

How much?

Spencer:

$180

Officer 1:

Roughly the same prices for everything else.

Spencer:

Basically. Yeah. It’s just my, that’s my vice and in
cocaine or anything, that’s mine and the Adderall. I
just use that. I do have a separate prescription but
I wanted to try Adderall again because I haven’t had
it in years. So I wasn’t allowed to take it in
operation so I wanted to try it and my family has.

Officer 1:

So Vince is your buddy though. Right?

Spencer:

Yeah.

Officer 1:

You kind of fucked him.

Spencer:

I felt pretty bad.

Officer 1:

You took his car which is really his girlfriend’s
mom’s, that grandma’s car.

Spencer:

Yeah.

Officer 1:

What was he’s going to get out of this deal? Just Gas
money? Smoke a little weed?

Spencer:

Are you guys charging? Or what are you...

Officer 1:

I don’t know yet. Your story somehow...

Spencer:

He did it. All the stuff is his, the box..

Officer 1:

We still have to prove that. We have some paper work.

Spencer:

Okay. I feel pretty bad about it. I have to make it
out for him.

Officer 1:

How are you going to get dinner? He wants to go home
it’s late night. I am going to have.. You got family?

Spencer:

Yeah, right.

Officer 1:

But no kids..

Spencer:

Yeah

Officer 1:

Can’t pronounce your fall back just yet. There’s
evidence in any situation. Bit I will let you, Vince
and Deven go at least by thanksgiving. And then we’re
going to deal about this later. It should give you
more time to talk and maybe we’ll work, maybe we
won’t. But either way you have time to position
yourself and I’ll talk to my boss. We don’t have a
power to make a kilo pretend like it never happened.

Spencer:

I know. I know. That’s what I’m saying because you
have to turn somebody with it and can’t just let us
all go.

Officer 1:

We’ll just do some talking later.

Spencer:

And there’s no way you can, I’m not trying to back
myself up and getting myself out of this place but
the sooner I can get out the sooner I can do damage
control cause I’ve been in this situation too many
times and get myself in a better position to work
with you guys and everything with my.. I don’t know
who knows about what happened yet, I’m sure a lot of
people know but..

Officer 1:

It’s not hard to look it out on that..

Spencer:

Yeah.

Officer 1:

I can’t say the charges because you haven’t been
arraigned.

Officer 2:

You could have outstanding warrants that you’ve been
held on

Spencer:

If there’s any way we could at least, I honestly want
like Vinnie and Deven to be released. They’re really
genuine good friends of mine. I feel horrible for
getting them involved with this. But if there’s any
way that I can get.

Officer 2:

Who’s the other contact number. You not might get
your phone back in time. How can we get hold of you.

Officer 1:

And do you know their phone number?

Officer 2:

If the “C” works on our phone, we can look up to your
phone.

Officer 1:

I got one and I’m going to leave my card to you. Then
leave it up to you. Or I will leave it up later on
your apartment.

Spencer:

So if I.

Officer 1:

I’m going to let you out the latest on thanksgiving.
I want to talk to you, Monday, the following Monday,
alright today is Tuesday? Next Monday the latest.

Spencer:

What time is it right now?

Officer 2:

Probably like 7 o’clock

Officer 1:

And as far as 198.50 that was on you, as of right now

Spencer:

Am I not getting it back?

Officer 1:

No. That’s the same thing, we’re going to forfeit it
but that doesn’t mean nothing can change. We have 20
days to dispute it or whatever or we’ll figure
something out

Officer 2:

What was guy’s name from Sterling Heights that you
said? That you were working with?

Spencer:

Schlegel.

Officer 2:

Schlegel?

Spencer:

S-c-h-l-e-g-e-l. And I have worked with him already.

Officer 2:

How did that work out? If we ask him would he say
that you were a great..

Spencer:

Yeah. I spent a little bit. I’ve done anything but
like I said I’m trying to stay away from it or trying
to get involved with it.

Officer 1:

Okay. Any questions for me?

Spencer:

Is there any way I can access my phone right now
while you guys are..

Officer 1:

We would have brought it over. I didn’t..

Spencer:

Where is it at?

Officer 1:

It’s in my office. In our room.

Officer 2:

Where are you at?

Spencer:

R8.

Officer 1:

R8.

Officer 1:

I don’t know if that “C” will work or probably not.

Spencer:

It probably would, if not. I’ll figure something out
then.

Officer 1:

Make that stuff back over tomorrow. I’ve got to write
that down. Zac Esquire or something?

Spencer:

I’d tell you if I do. It’s on the top of my head, I
don’t know how to spell it. It’s like Esqui
something..

Officer 1:

What’s you’re Facebook?

Spencer:

It’s just Spencer Andrews.

Officer 1:

Spencer Andrews. You suspect that it’s all his. He
has partners?

Spencer:

Well, It was just kind of an assumptions. I assume
he may had partners cause I don’t...

Officer 1:

What’s he doing New York for?

Spencer:

It was just leisure I think. It was probably just for
a show or something.

Officer 1:

Do you know if he has a different job?

Spencer:

I think, he has told me that he works as a trimmer.

Officer 1:

It makes a pretty good money.

Spencer:

Yeah. It’s $16 now

Officer 1:

I’ve heard ones making it $20.

Spencer:

It depends on the size on.. So, there’s no way that
to get that.. or are you going back tomorrow?

Officer 1:

Maybe tomorrow.

Spencer:

I didn’t think it was going to happen. I was just
hoping to be up tonight.

Officer 1:

Not that part.

Spencer:

up tonight?

Officer 1:

Monday is 27th?

Spencer:

I do have another phone at home, I just need to
activate it. I don’t know if it is the same number
but I will definitely contact you on Monday.

Officer 1:

I’m going to answer some questions and there’s a lot
going on with you. So I can’t make any promises

Spencer:

the same guy

Officer 1:

He was his boss not my boss.

Spencer:

Alright. So see you tomorrow?

Officer 1:

Possibly. No promises.

Spencer:

Alright. Thanks.

Officer 1:

Thank you.

